    DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General



           An Evaluation of the Security

                Implications of the 

               Visa Waiver Program





Office of Inspections, Evaluations, & Special Reviews

 OIG-04-26                          April 2004
                                              Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG periodically as part of its oversight responsibility with respect to DHS to
identify and prevent fraud, waste, abuse, and mismanagement.

This report is the result of an assessment of the strengths and weaknesses of the program,
operation, or function under review. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed on the basis of the best knowledge available
to the OIG, and have been discussed in draft with those responsible for implementation. It is
my hope that this report will result in more effective, efficient, and/or economical operations. I
express my appreciation to all of those who contributed to the preparation of this report.




Clark Kent Ervin
Inspector General
                                                                                                                        Contents



  Introduction.................................................................................................................................... 3


  Results in Brief ................................................................................................................................3


  Background .................................................................................................................................... 5


  Purpose, Scope, and Methodology.................................................................................................. 7

  The Visa Waiver Program in Perspective....................................................................................... 7


  VWP Management ....................................................................................................................... 10


  VWP Overstay Reporting ............................................................................................................ 11


  VWP Country Reviews ................................................................................................................ 13


  Lost and Stolen Passports ............................................................................................................ 15


  Reporting LASP Information....................................................................................................... 16


  Detection of Stolen VWP Passports............................................................................................. 17


  Stolen Passports Returned to Travelers........................................................................................ 20


  US-VISIT and VWP .................................................................................................................... 21


  Biometric Passport Deadline........................................................................................................ 23


  POE Inspector Training................................................................................................................ 24



Appendices

  Appendix 1:                 Countries in the Visa Waiver Program............................................................ 26
  Appendix 2:                 Nonimmigrant Admissions for VWP Countries, 1998 - 2003 ........................ 27




                       An Evaluation of the Security Implications of the Visa Waiver Program                                                    Page 1
Contents


   Appendix 3:   Nonimmigrant Visa Issuances in VWP Countries
                 Before and After VWP Accession................................................................... 28

   Appendix 4:   Legislative History of the Visa Waiver Program ............................................ 30

   Appendix 5:   Management Comments ..................................................................................36

   Appendix 6:   OIG Evaluation of Management Comments................................................... 37

   Appendix 7:   Recommendations........................................................................................... 38

   Appendix 8:   Major Contributors to this Report................................................................... 40

   Appendix 9:   Report Distribution ......................................................................................... 41



Abbreviations

APIS                  Advance Passenger Information System
BTS                   Border and Transportation Security Directorate
CBP                   Bureau for Customs and Border Protection
CCD                   Department of State’s Consular Consolidated Database
CLASS                 Consular Lookout and Support System
DHS                   Department of Homeland Security
DMIA                  2000 INS Data Management Improvement Act
EBSVERA               2002 Enhanced Border Security and Visa Entry Reform Act
FDL                   Forensic Documents Laboratory
FY                    Fiscal Year
GAO                   Government Accounting Office
ICAO                  United Nations International Civil Aviation Organization
ICE                   Bureau for Immigration and Customs Enforcement
ICN                   Inventory Control Number (of a passport book)
IIRIRA                1996 Illegal Immigration Reform and Immigrant Responsibility Act
IMMACT                1990 Immigration Act
INA                   1952 Immigration and Nationality Act
INS                   Immigration and Naturalization Service
IRCA                  1986 Immigration Reform and Control Act
LASP                  Lost and Stolen Passports
MRP                   Machine-Readable Passport
MRV                   Machine-Readable Visa
OIG                   Office of Inspector General
POE                   Port of Entry
TECS                  Treasury Enforcement Communications System



Page 2                          An Evaluation of the Security Implications of the Visa Waiver Program
                                                                                     Contents


TIPOFF                 Department of State Terrorist Information Watchlist
USA PATRIOT Act        2001 Uniting and Strengthening America by Providing Appropriate Tools
                       Required to Intercept and Obstruct Terrorism Act
US-VISIT               US Visitor and Immigrant Status Indicator Technology
VWP                    Visa Waiver Program
VWPP                   Visa Waiver Pilot Program
VWPPA                  2000 Visa Waiver Permanent Program Act




             An Evaluation of the Security Implications of the Visa Waiver Program         Page 3
OIG

Department of Homeland Security
Office of Inspector General


Introduction
                              We evaluated the Border and Transportation Security directorate’s (BTS)
                              management of the Visa Waiver Program (VWP).1 The VWP was first established
                              as a pilot program in 1986. By 1989, the Attorney General and the Secretary of
                              State designated eight countries to participate in the program. As of March 2004,
                              there were 27 designated VWP participating countries.2

                              The VWP enables citizens of certain countries to travel to the United States
                              for tourism or business for 90 days or less without obtaining a visa. The
                              Visa Waiver Permanent Program Act (VWPPA)3 was approved in 2000. The
                              Homeland Security Act of 2002 vested in the Secretary of Homeland Security “all
                              authorities” to issue regulations, to administer, and to enforce all immigration and
                              nationality laws.4 (A legislative history of the VWP is at Appendix 4.)

                              Prior to the establishment of DHS, the Department of Justice (DOJ) Office of
                              the Inspector General (OIG) examined VWP operations in 1999 and 2001. DOJ
                              OIG identified several chronic and recurring problems and made a series of
                              recommendations to strengthen implementation of the program. The General
                              Accounting Office (GAO) also issued a report5 in November 2002 assessing VWP
                              operations, but did not address the VWP’s security aspects.

                              In this report, we examined BTS’ management of the VWP, focusing on security
                              issues that could threaten the safety and security of the United States.

Results in Brief
                              Since 1988, several hundred million visitors have entered the United States
                              as VWP travelers resulting in convenience and savings to foreign travelers,
                              substantial economic benefits to the United States, reduced costs for U.S. visa and

1
 Immigration and Nationality Act (8 U.S.C. 1187), Sec. 217.

2
  List of designated VWP participating countries is at Appendix 1.

3
  P.L. 106-396.

4
  P.L. 107-296, Sec. 428.

5
  GAO-03-38



Page 4                                      An Evaluation of the Security Implications of the Visa Waiver Program
     entry processing, and reciprocal visa-free travel for Americans to VWP designated
     countries. After 12 years of pilot operations, Congress recognized these benefits
     and made the VWP a permanent program in 2000. Congress strengthened
     provisions of the VWP to ensure that the program did not adversely affect the law
     enforcement and security interests of the United States.

     We identified significant areas where BTS needs to strengthen and improve VWP
     performance. VWP organizational issues have not been fully resolved since the
     Department of Homeland Security (DHS) was established in March 2003. Since
     the dissolution of the Immigration and Naturalization Service (INS), the VWP
     has had a series of acting managers and officials sharing responsibilities. It is not
     clear to many within DHS or other federal agencies who is in charge of the VWP.

     Due to a current lack of funding, trained personnel, and other issues, BTS is
     unable to comply with the mandate to conduct “country reviews” of each VWP-
     designated country every two years to determine whether that country shall be
     continued in the program. BTS has not developed a process, and does not have an
     approved inter-agency protocol, for conducting such reviews. On the immediate
     horizon, there is no process for determining whether to continue the designation
     of Belgium as a VWP country when its one year probationary status ends on May
     15, 2004.

     BTS’ lack of readiness to conduct VWP country reviews directly undercuts its
     ability to assess the most serious security problem inherent in this program--lost
     and stolen passports (LASP). LASP information provided by VWP governments
     has not been thoroughly checked by the former INS or now by BTS against U.S.
     entry and exit information to determine whether the passports have been used
     to enter the United States. Collection of LASP data from VWP governments
     is not proactive or uniform, nor is the data disseminated in an organized
     fashion. Further, LASP problems are complicated by the lack of international
     standardization in passport numbering systems that can result in a failure to
     identify male fide travelers using stolen VWP passports.

     Finally, there are two other issues with security implications for the VWP: a
     potential security weakness in the fraudulent use of VWP passports to bypass the
     United States Visitor and Immigrant Status Indicator Technology (US-VISIT)
     procedures; and inadequate training in passport fraud for inspectors at ports of
     entry (POEs).




An Evaluation of the Security Implications of the Visa Waiver Program               Page 5
          We are recommending that BTS:

              1)	 Designate a VWP program manager with clearly defined responsibilities
                  and authorities;
              2) Develop a plan to conduct the mandated VWP annual reports;
              3) Develop protocols and a plan to conduct biennial country reviews;
              4) Provide funding to support the conduct of the country reviews;
              5) Develop a process for reviewing the probationary designation of
                  Belgium, so that a decision can be rendered prior to May 15, 2004;
              6) Develop a process comprehensively to check all lost and stolen passport
                  (LASP) data provided by VWP governments against entry and exit data
                  in U.S. systems;
              7) Develop procedures to collect and analyze data concerning the fraudulent
                  use of VWP passports;
              8) Include in the country review protocols provisions to review document
                  manufacturing and issuing security practices;
              9)	 Coordinate with the Department of State to establish a standard
                  operating procedure for the systematic and proactive collection of LASP
                  information;
              10) Require that inventory control numbers and passport numbers be queried
                  in lookout systems;
              11) Review current policies that allow the return of fraudulent travel
                  documents to those who presented them when they are sent back to their
                  countries of origin;
              12) Require, as soon as US-VISIT capabilities permit, that VWP travelers be
                  screened by US-VISIT procedures;
              13) Develop and recommend legislation to grant DHS waiver authority for
                  VWP countries that cannot comply with the biometric passport deadline;
                  and
              14) Provide additional training in passport fraud detection for POE 

                  inspectors. 


          On March 11, 2004, we sent a draft copy of this report to the Undersecretary for
          Border and Transportation Security and additional copies to various program
          managers and liaison points of contact within DHS. The draft report was sent
          for the purpose of obtaining comments or factual additions that the readers
          might have believed appropriate. The draft was also sent to obtain a response to
          our recommendations and an indication whether the component agreed to take
          corrective action. We asked for a response in 30 days from issuance of the draft
          report.



Page 6	             An Evaluation of the Security Implications of the Visa Waiver Program
                  Although we allowed the component additional time to issue its response, none
                  was received. Accordingly, we are issuing the final report without the benefit of
                  the component’s response.

                  Although we have not received a response from DHS to our draft report, several
                  of our recommendations have been the subject of public commentary in recent
                  weeks. On April 2, 2004, DHS announced that it will begin processing VWP
                  passengers through US-VISIT by September 30, 2004 (see our recommendation
                  number 12), and that it would seek an extension of time for the biometric passport
                  deadline (see our recommendation number 13). Informally, we have learned
                  that the requirements that DHS conduct country reviews may have received
                  new attention and resources recently (see recommendation numbers 3 through
                  5). Because we have not received a reply from BTS responding formally to our
                  recommendations and providing sufficient detail to show how corrective action
                  will be accomplished, all 14 recommendations are unresolved at this time.

Background
                  Procedural Differences Between Inspections of Visa and VWP Travelers

                  The visa is more than a mere stamp in a passport. It is the end result of a rigorous
                  screening process the bearer must undergo before travel. By the end of the
                  process, U.S. authorities have collected and stored considerable information about
                  the traveler and the traveler’s planned journey. When the visa is waived for broad
                  classes of travelers, those travelers avoid this extensive examination and the
                  United States does not collect comparable information regarding them.

                  Visa applicants answer 40 questions when they complete the Nonimmigrant
                  Visa Application Form (DS-156). If male and between the ages of 16 and 45,
                  they must answer 18 additional questions on the Supplemental Nonimmigrant
                  Visa Application Form (DS-157). Another supplemental form, the Contact
                  Information and Work History for Nonimmigrant Visa Applicant (DS-158), is
                  sometimes used. These questions elicit detailed information from the applicants
                  about their personal biography; their employment history; the purpose, duration,
                  and destination of their planned travel; the immigration status of close family
                  members; and their prior visa history. All of this information is used by the
                  consular officer to decide whether to issue the visa, and if so, which type.

                  The Department of State computer system processes the visa applications and
                  prints the visas. The system maintains an electronic record of the applicants’


             An Evaluation of the Security Implications of the Visa Waiver Program             Page 7
         photographs and their responses to many of the questions on the forms. In earlier
         years, much of the information submitted by the applicant was not entered into the
         computer, which originally was just a visa printing device. In 2003, the system’s
         software was improved to collect and preserve additional data fields relevant to
         the alien’s travel. The Department of State began collecting digital fingerprints of
         visa applicants in 2003. Some information about the traveler’s visa application
         is stored in the Consular Consolidated Database (CCD). Some of the CCD
         information is available to inspectors at the POEs, who can use it to verify the
         arriving traveler’s identity and the stated purpose of their travel. Upon arrival at
         the POE, a traveler with a visa will submit a completed Form I-94, Nonimmigrant
         Arrival/Departure Form, which contains 13 questions to identify the alien in the
         computerized arrival system.

         In contrast, all a VWP traveler completes is Form I-94W, Nonimmigrant Visa
         Waiver Arrival/Departure Form. It asks for the traveler’s name and date, but
         not place of birth; country of current, but not former, citizenship; country of
         residence; passport number, but no visa information; and a U.S. destination
         address. POE inspectors cannot use appointment systems to manage their
         workload. Hundreds, and sometimes thousands, of travelers can descend on them
         almost at once. While a previous requirement to clear all passengers from a flight
         within 45 minutes was abandoned following the terrorist attacks of September
         11th, the managers at the POEs we visited still consider the 45-minute a goal to be
         achieved as often as possible.

         POE inspectors told us that when they see a recently issued visa in a traveler’s
         passport, and in the absence of indications of fraud, they are inclined to believe
         that the traveler is likely to be admissible. Some inspectors expressed envy at the
         tools available to consular officers: the language and other professional training,
         the experienced foreign staff knowledgeable about local fraud trends, and the
         time to conduct a thorough interview, requiring the applicant to come back again
         another day, if necessary, with supporting documents.

         Consular officers usually receive training in the language spoken most commonly
         in the country to which they are assigned. This training enables them to
         communicate with the majority of the people that they encounter in their jobs.
         However, POE inspectors interview a diverse stream of passengers that speak
         many different languages. It is unlikely that POE inspectors can speak all of
         the languages encountered in their jobs. One interview we observed at a POE
         was illustrative of the language problem embassies do not face. The traveler,
         presumably Japanese, behaved as if he spoke no English. The inspector did not



Page 8             An Evaluation of the Security Implications of the Visa Waiver Program
                             speak any Japanese and posed a series of questions in English to the traveler, who
                             simply stared back. Eventually the inspector asked: “You’re a tourist, right?”
                             while bobbing his own head up and down. The foreigner nodded his head, too,
                             and was admitted without having spoken a word.

Purpose, Scope, and Methodology
                             We conducted this evaluation to assess BTS’ management of the VWP, focusing
                             on the program’s security aspects. Our goal was to examine VWP’s organization,
                             policy requirements, and field operations comprehensively. Beginning in October
                             2003, the Office for Inspections, Evaluations, and Special Reviews conducted
                             interviews and reviewed documents at DHS headquarters in Washington,
                             D.C. We conducted interviews with DHS personnel from CBP, the Bureau of
                             Immigration and Customs Enforcement (ICE), CBP’s National Targeting Center
                             (NTC), BTS’ US-VISIT Office, and ICE’s Forensic Document Laboratory
                             (FDL). Additionally, we conducted interviews with several analysts and
                             advisors with prior experience in the VWP who are now working at the Central
                             Intelligence Agency’s Terrorist Threat Integration Center and the Federal Bureau
                             of Investigation’s Terrorist Screening Center. Information and documents were
                             also collected from senior officials at the Department of State and the Department
                             of Justice. We visited POEs at Washington Dulles, Miami International, Newark
                             International, and John F. Kennedy International Airports, as well as land POEs at
                             Peace Bridge and Rainbow Bridge in New York. Finally, we traveled to five VWP
                             countries -- Belgium, France, United Kingdom, Singapore, and Brunei -- in order
                             to observe U.S. visa operations and to consult with U.S. and foreign officials in
                             those countries regarding the VWP.

The VWP in Perspective
                             Hundreds of millions of travelers from VWP countries visited the United States
                             since program operations began in 1988.6 In the last five years alone, there
                             have been 93 million nonimmigrant admissions from VWP countries.7 The
                             positive effects of such a large number of foreign visitors on the U.S. economy,
                             particularly the tourism and commerce sectors, were significant.8



6
  To take advantage of entry into the U.S. without a visa, VWP entrants must be coming for less than 90 days for tourism or business. 

Entrants from VWP countries for other purposes still require a visa. 

7
  See Appendix 2.

8
  For a full discussion of the benefits of the visa waiver program, see the GAO report mentioned in the Introduction. 




                        An Evaluation of the Security Implications of the Visa Waiver Program                                      Page 9
                                According to DHS statistics in fiscal year (FY) 2002, 15.1 million VWP travelers
                                accounted for 3% of U.S. border crossings. By contrast, travelers with visas
                                accounted for 19.3 million crossings, or 5% of the total. Crossings by U.S.
                                citizens - 161.1 million and legal permanent residents - 79.6 million - were 55%
                                of the total, while visa-exempt Canadians -52.2 million- and Mexicans with
                                border crossing cards -104.1 million - comprised 37%. The same data shows that
                                13 million VWP visitors in FY 2002 arrived by air –86% - while 1.8 million –12%
                                - crossed at land ports and fewer than one-half million –2% - came into sea ports.

                                While a key aim of the VWP is to facilitate travel to the Unites States, another
                                essential feature of the program is to reduce the need to process, adjudicate, and
                                issue large numbers of visas, provided that participating countries meet criteria
                                set in U.S. statutes, including reciprocal treatment for U.S. nationals visiting
                                VWP countries. Accomplishment of this visa reduction goal is reflected in
                                figures that show a significant drop – in many cases from two-thirds up to 90%
                                – in nonimmigrant visa issuances to nationals of VWP countries, measured two
                                years before and after entry into the program. For example, in 1987, 1.5 million
                                Japanese received U.S. visas; in 1991, two years after Japan entered the VWP, the
                                number decreased to 130,000. In 1988, British nationals received 950,000 visas;
                                in 1990, the number was less than 350,000.9

                                The VWP and Terrorists

                                In the changed security environment after the September 11, 2001 attacks against
                                the United States, concerns have been raised that terrorists may take advantage
                                of the VWP to enter the United States or to attack U.S. targets. Among several
                                recent cases we reviewed from public information records are the following:

                                Habib Zacarias Moussaoui, a French citizen of Moroccan descent, used his
                                French passport without a U.S. visa on February 23, 2001, to fly from London to
                                Chicago, and on to Oklahoma City. There he began flight training at an aviation
                                school in which he had enrolled from abroad. On August 16, 2001, INS arrested
                                Moussaoui because he remained in the United States well beyond the 90 days
                                allowed for VWP entrants and in violation of the requirement that VWP travelers
                                enter for business or tourism. On the basis of intelligence and law enforcement
                                information, he was indicted on December 11, 2001, for engaging in the same
                                preparations as the co-conspirators who carried out the September 11th attacks.
                                Moussaoui’s trial is in progress.


9
    For statistics on all VWP countries, see Appendix 3.



Page 10                                       An Evaluation of the Security Implications of the Visa Waiver Program
                                Richard Reid, on December 22, 2001, used a British passport newly issued to
                                him in Amsterdam and, without a U.S. visa, boarded American Airlines flight
                                63 bound from Paris to Miami. Reid’s attempt to light explosives hidden in his
                                shoes was foiled by alert passengers and crew. Reid eventually pleaded guilty to
                                multiple federal charges and is serving a life sentence plus 110 years. He was also
                                fined $2 million.

                                Ahmed Ajaj fraudulently presented a Swedish passport, on September 1, 1992,
                                with his substituted photo, without a U.S. visa, for INS inspection when he arrived
                                at JFK International Airport on a Pakistani International Airways flight from
                                Peshawar. At secondary inspection, Ajaj’s luggage was searched, revealing six
                                bomb-making manuals, notes he had taken during explosives courses, videotapes
                                calling for terrorism against Americans, multiple fake passports and identification
                                documents, and a “cheat sheet” on how to lie to U.S. immigration inspectors.
                                Ajaj was arrested for passport fraud and attempted illegal entry and was serving
                                a six-month sentence when terrorists attacked the World Trade Center (WTC) on
                                February 26, 1993. During his imprisonment, Ajaj had over 20 Arabic-language
                                phone conversations with Ramzi Yousef and other WTC conspirators – undetected
                                at the time. He was released three days after the WTC was bombed. The key
                                figure in that conspiracy, Ramzi Yousef, had entered the United States via the
                                same Pakistan International Airways flight as Ajaj, and they sat together on the
                                first leg of the flight, but took separate seats on the flight inbound to the United
                                States. Yousef had boarded in Peshawar with a fraudulent British passport,
                                presumably with no U.S. visa, and when he arrived at JFK, presented an Iraqi
                                passport in his own name, with no visa. Yousef was sent to secondary inspections
                                where he requested political asylum; he was released on his own recognizance
                                and went on to finish organizing the WTC bombing. After the WTC attack was
                                unraveled, Ajaj’s connection with Yousef and other conspirators was discovered.
                                Ajaj was re-arrested, tried, and convicted of conspiracy and other charges, and
                                was sentenced to 240 years in prison and a $500,000 fine.

                                According to information from TIPOFF, a terrorist-screening database developed
                                at the Department of State in 1987,10 between June 1991 and February 2004,
                                more than two hundred VWP nationals were denied entry into the United States
                                following confirmed matches between these individuals and TIPOFF records. Of
                                these, 157 were attempting to enter the United States under the VWP, including:

                                      §	    A British mercenary who twice was arrested while attempting to enter the
                                            United States, the first time in 1991, based on information linking him

10
     TIPOFF operations were transferred to the Terrorist Threat Integration Center and the Terrorist Screening Center in 2003.



                           An Evaluation of the Security Implications of the Visa Waiver Program	                                Page 11
                    to massacres in Colombia, and then again in 2003, when he was trying
                    to buy a U.S. fighter plane in order to kill renowned drug kingpin, Pablo
                    Escobar.

               •	   A French-Bolivian dual national, who was implicated in a 1990 bombing
                    of the residence of U.S. Marines assigned in La Paz, was apprehended in
                    Miami in 1994 based on TIPOFF records.

               •	   An Irish national applying for admission under the VWP on November
                    13, 2003, was identified by TIPOFF as a murderer, hijacker, and member
                    of the Provisional Irish Republican Army.

               •	   A Swedish national applied for admission under the VWP on February
                    3, 2004, at the Rainbow Bridge POE (Buffalo, NY). He possessed a
                    Swedish identification card bearing his photograph and the name of a
                    member of the Mujahedeen-e-Khalq, designated by the Department of
                    State as a terrorist organization.

           Naturalization Laws and Derived Citizenship

           Some VWP governments, such as Belgium, Sweden, and Denmark, have liberal
           naturalization laws whereby a third country national can obtain citizenship
           and a VWP passport after as little as three years’ residence. We were told that
           sometimes inspectors have difficulty determining the admissibility of naturalized
           VWP nationals because they have reservations with the law enforcement or
           security history of applicants who have lived in a VWP country for only a few
           years. Inspectors have little or no opportunity to conduct additional background
           checks before making a determination that the applicants are eligible to enter the
           United States. In the words of one inspector: “Our concern is that bad guys can
           wash their backgrounds clean in only three years.”

           A second issue involves derivative nationality. In a derivative nationality case,
           a citizen of one country is able to claim citizenship of a second country – in
           which the person may never have set foot – because the parents or grandparents
           are citizens of the second country. Irish nationality, for example, is available to
           almost anyone with one Irish grandparent. Italian law is even more generous in
           this respect.




Page 12	              An Evaluation of the Security Implications of the Visa Waiver Program
VWP Management
                               All of the officials we spoke to told us that the VWP is not properly organized
                               or managed. When INS disbanded, the VWP program manager was reassigned
                               to other responsibilities, and several officials filled in on an interim basis or
                               shared responsibility for the VWP requirements. We were told that since the
                               establishment of DHS responsibility for the VWP is unclear. One CBP official
                               described the VWP as being “on autopilot, in an orphan status, with no designated
                               manager or overseer.” This official said the biggest challenge for DHS is to
                               make management decisions so that a cadre of officers from CBP and ICE can be
                               trained to manage the VWP and work with appropriate intelligence components,
                               as well as the Department of State, to get the VWP functioning properly again.

                               Another CBP official said that DHS must decide how it is going to manage its
                               VWP responsibilities and operations. Then it must select the right manager to
                               address inspections and enforcement issues, conduct inter-agency coordination,
                               and monitor diplomatic and international aspects of the program.

                               Department of State officials told us that “DHS needs to identify who will be
                               responsible for the VWP program” so that work can proceed on coordinated
                               DHS-Department of State reports, such as the biennial country reviews.11 Some
                               Department of State officials were told that responsibility for VWP was shifting,
                               or had been shifted to CBP, but that ICE might still be interested in managing the
                               program. Another official was told by a senior DHS manager that the Office of
                               the Assistant Secretary for Policy and Planning was responsible for VWP, but this
                               seems unlikely because that office does not normally exercise operational duties.

                               POE inspectors and intelligence analysts told us that lines of communication,
                               since the reorganization, regarding the VWP were unclear. For example,
                               intelligence analysts at one airport Passenger Analysis Unit said they no longer
                               knew where to send their VWP-related information and that the guidance they
                               receive from headquarters was random.

                               Recommendation

                               We recommend that the Under Secretary for Border and Transportation Security:

                                     1.	 Assign responsibility for policy direction of the VWP to a specific office,
                                         designate a VWP program manager with clearly defined responsibilities,
11
     See discussion of country reviews below.



                          An Evaluation of the Security Implications of the Visa Waiver Program	             Page 13
                                         and designate subordinate officials in other DHS components upon which
                                         the VWP depends for its coordinated functions.

VWP Overstay Reporting
                                 We were unable to confirm that DHS submitted required VWP overstay reports.
                                 The Illegal Immigration Reform and Immigrant Responsibility Act (IIRIRA) of
                                 199612, requires annual reporting on the number of VWP visitors “for whom no
                                 matching departure record has been obtained…with an accounting by the alien’s
                                 country of nationality and date of arrival in the U.S.” Without these reports, the
                                 government cannot accurately evaluate the potential risks to U.S. security posed
                                 by a country’s continued participation in the VWP.

                                 We asked several officials whether any such reports had been submitted, but did
                                 not receive clear responses. One official suggested that we ask the congressional
                                 liaison office of the former INS, an office that no longer exists. A former INS
                                 official said that reports were not submitted and that INS did not have adequate
                                 information or records to complete the reports.

                                 The database used to keep records for such information is the Nonimmigrant
                                 Information System, a paper-based entry and exit tracking system for
                                 nonimmigrant visitors to the United States. It was first deployed in 1983 and
                                 remains largely unchanged since then. The system contains a large amount of
                                 information accessible to several federal agencies, including entry and exit data.
                                 However, one problem for years has been incomplete collection of departure
                                 information because the United States lacks a formal exit or departure control
                                 system, as exists in most countries. VWP travelers often lost the portion of the
                                 Form I-94W that was inserted into their passport when they arrived or failed
                                 to turn it in on departure. Moreover, the Form I-94W records were not always
                                 properly transmitted, processed, or recorded.

                                 The Visa Waiver Permanent Program Act (VWPPA) of 200013 also requires
                                 annual reporting, by country, of percentages of VWP arrivals for which no
                                 record of departure exists. Data for this reporting requirement was supposed to
                                 be collected by a fully automated entry and exit control system to be developed
                                 and implemented by October 1, 2001. This system has not been developed as
                                 planned. We were unable to confirm that any reports were submitted according to


12
     Section 110(b)(2)(C).
13
     Section 205 (a)(1)(C)(i).


Page 14                                    An Evaluation of the Security Implications of the Visa Waiver Program
     this requirement. Although we questioned several DHS officials, we were unable
     to identify which DHS office was responsible for submitting the reports.

     A regulation was published in early October 2002 requiring transportation carriers
     to submit VWP travelers’ arrival and departure records electronically. Since
     October 1, 2002, according to a DHS fact sheet, passenger arrival and departure
     information on people entering and leaving the United States under the VWP has
     been electronically collected from airlines and cruise lines through the Advance
     Passenger Information System (APIS). An official at the US-VISIT Office
     confirmed that since October 1, 2002, the system for electronic collection of
     arrival and departure data on VWP travelers was in operation at all required ports
     of entry. However, the VWP traveler information was available only at seven
     POEs. We were told that because of technical reasons “only seven of them were
     fully operable and had the ‘class of admission’ screen activated.” He added that
     the carriers were providing arrival and departure information at that time, and
     so “we [DHS] had it.” Except for the seven POEs, BTS could not distinguish
     between VWP travelers and visa travelers. In November 2003, we were told that
     the system has been further developed, but it was still not fully operational.

     Officials at CBP who are responsible for collecting APIS data explained that the
     series of laws and regulations regarding provision of arrival and departure data
     emerged in stages. Some legislation refers expressly to VWP travelers while
     other provisions use more general terms. BTS expects that early in 2004 a new
     and final regulation will be published which implements recent laws by requiring
     provision of both arrival and departure data, with penalties, for all foreign
     travelers. Currently, there are penalties for non-provision of arrival data, but
     not for non-provision of departure data. Many carriers, however, are providing
     the departure data anyway. This latter point was confirmed to us in site visits
     to five ports of entry, where we were also told that enforcement of penalties had
     persuaded carriers to provide arrival data as required and departure.

     Recommendation

     We recommend that the Under Secretary for Border and Transportation Security:

           2.	 Develop a plan to ensure the accurate and timely submission of required
               VWP annual reports.




An Evaluation of the Security Implications of the Visa Waiver Program	          Page 15
VWP Country Reviews
                             BTS has not conducted required VWP country reviews and has not developed
                             plans to conduct them in the future. As part of strengthened VWP reporting
                             requirements, the VWPPA required the Attorney General, in consultation with the
                             Secretary of State, periodically, but not less than once every five years, to evaluate
                             “the effect of each country’s continued designation on the law enforcement
                             and security interests of the United States…and to determine, based upon the
                             evaluation, whether the designation should be continued or terminated….” The
                             VWPPA required that evaluation reports were to be submitted to appropriate
                             Congressional committees. The requirement for review of each VWP country at
                             least once every five years was changed to every two years.14

                             DHS officials told us that in 2000, the DOJ’s INS and the Department of State’s
                             Bureau of Consular Affairs began to negotiate an “Interagency Protocol for
                             Implementation of the Visa Waiver Program.” The protocol included provisions
                             regarding the designation of new countries, periodic review of continuing
                             designation, emergency termination, and several other provisions. By May
                             2001, work on the draft protocol had solidified and planning began to form inter-
                             agency teams to visit VWP countries to assess their continuing designation in the
                             program. Before planning was concluded and before the protocol was finalized
                             for submission to department principals for approval, the September 11th attacks
                             occurred, resulting in shifting priorities, attention, and resources. The protocol
                             was never formally approved.

                             In November 2001, however, six inter-agency teams from INS, U.S. Customs,
                             and the Department of State made assessment review visits to Slovenia, Belgium,
                             Italy, Portugal, Argentina, and Uruguay. The purpose of these reviews, pursuant
                             to the VWPPA, was to make in-depth assessments of relevant conditions and
                             practices in VWP countries from the perspective of U.S. law enforcement and
                             national security interests.

                             Following the teams’ draft reports, the ensuing review process was difficult and
                             protracted. There were sharp internal differences between the INS Office of
                             Inspections and other INS elements, as well as with the Departments of Justice
                             and State, including differences over facts, misunderstandings over contexts,
                             tendentious allegations, and judgments that standards had been unevenly and



14
     Section 307(a)(2) of EBSVERA, 2002.



Page 16                                    An Evaluation of the Security Implications of the Visa Waiver Program
                             inconsistently applied from one country to another. The review process resulted
                             in decisions by the Attorney General to:

                                  •	    Terminate the designation of Argentina;
                                  •	    Continue designation of Italy, Slovenia, and Portugal;
                                  •	    Terminate the designation of Uruguay; and
                                  •	    Allow Belgium to continue participating in the VWP on a provisional
                                        basis for one year, starting from May 15, 2003, with another evaluation
                                        to be conducted at that time to determine whether Belgium’s continued
                                        participation in the VWP is in the law enforcement and security interests
                                        of the United States.

                             When we inquired in November 2003 whether additional VWP reviews had
                             been conducted or were planned, CBP officials told us that there are no plans to
                             conduct any future country reviews. When we asked in particular about Belgium,
                             whose one year provisional participation in the VWP is due to lapse May 14,
                             2004, CBP officials responded that no plans yet have been made to conduct
                             the follow-up evaluation as stipulated in the Attorney General’s March 2003
                             announcement.15 Department of State officials told us that they have urged DHS
                             to conduct the VWP reviews, but that DHS has not yet decided to do so.

                             CBP officials said that the first country reviews had been conducted under the
                             leadership of the INS Office of Inspections. They told us that DHS must create
                             an inter-agency structure similar to the earlier one and the CBP Office for Field
                             Operations is examining this requirement. DHS must also develop standard
                             country review protocols for future country reviews. We were told the country
                             review protocols would most likely resemble the draft protocol.

                             CBP officials also told us that the new requirement to review VWP countries
                             every two years greatly increased the demands for personnel, resources, and funds
                             to conduct the reviews. However, additional funding to support this requirement
                             was not provided. When asked whether future VWP reviews might be included
                             on the agenda for 2004, CBP officials said this might be possible by the end of
                             2004, but it would require additional work, resources, and funds.




15
  For the Attorney General’s statement, see the Federal Register, March 7, 2003, Volume 68, Number 45. It is not clear whether Belgium’s
provisional participation in the VWP would be extended beyond one year if the follow-up evaluation is not conducted on a timely basis.


                       An Evaluation of the Security Implications of the Visa Waiver Program	                                  Page 17
                              Recommendations

                              We recommend that the Under Secretary for Border and Transportation Security:

                                   3. 	 Formally assign responsibility for conducting the required country
                                        reviews and develop formal protocols for conducting the reviews.

                                   4. 	 Determine what funds and resources will be necessary to conduct the
                                        mandated country reviews.

                                   5. 	 Conduct the review of Belgium as a designated VWP participant to avoid
                                        any lapse when its one year provisional status ends on May 14, 2004.

Lost and Stolen Passports
                              BTS does not have a process to check lost and stolen passport (LASP)
                              information with entry and exit information to determine the scope of fraudulent
                              use of VWP passports. Further, BTS does not collect and analyze data from the
                              POEs regarding the fraudulent use of VWP passports. During the past 15 years,
                              several hundred million VWP visitors have entered the United States and at the
                              same time, many thousands of passports from VWP countries have been lost or
                              stolen.16 BTS has little information on how many of these passports have been
                              fraudulently used to enter the United States, how many may still be in circulation,
                              how many have and have not been entered into U.S. lookout databases,17 or who
                              may have used them. 18

                              We asked an inspector with extensive experience in passport fraud and travel
                              patterns whether it is possible to check all of the LASP data provided by VWP
                              governments against U.S. databases with entry and exit information, in order to
                              determine the number of times lost or stolen VWP passports have been used to


16
   All governments, including VWP participants, face LASP problems. Some VWP governments have bigger problems than others.
Among those cited repeatedly to us by port inspectors as having serious problems were Italy, France, Belgium (reported to be formerly a
very bad problem, but considerably improved since May 2003), Slovenia (formerly a serious problem, improved since August 2002), and
Portugal (a more recent problem). Port inspectors also cited significant LASP problems in the United Kingdom, Denmark, Spain, and
Japan (counterfeits).
17
   Section 308 of the Enhanced Border Security and Visa Entry Act of 2002 stipulated that “to the extent practicable,” the Attorney General,
in consultatio
for tracking stolen passports.
18
   We were provided with a limited amount of information about stolen VWP blank passports subsequently filled in with fraudulent data
and used
repeated entries. The OIG will pursue this matter separately.


Page 18	                                    An Evaluation of the Security Implications of the Visa Waiver Program
     enter the United States. His response was affirmative, and he estimated that it
     might take three people working about six months to accomplish this task.

     Virtually all those familiar with VWP operations told us that LASP is the greatest
     security problem associated with the VWP. Officials from the law enforcement
     community, who deal with alien visitors and passports on a daily basis, see
     the potential for misuse of VWP passports as a security risk, especially since
     September 11, 2001. They report frequent examples of such misuse, several times
     a week or more at major international airports. Alien smuggling gangs routinely
     use fraudulent VWP passports to bring illegal aliens and their escorts to the
     United States. When we requested data on such misuse of VWP passports at U.S.
     POEs, a CBP official told us that such data is not collected by country because
     there has never been a requirement to do so, and in the absence of a requirement,
     funding was not provided.

     FDL officials told us that criminals consider a VWP passport a very valuable
     commodity. Every time a new country entered the VWP, its passports became
     targets for counterfeiters, petty crooks who attempt photo substitutions, and
     organized criminals who steal blank passports, as well as forgers who use
     modern technology to create false identities in blank passports and criminal rings
     who manufacture phony identity documents in order to obtain VWP passports.
     Further, FDL officials said that every time a new country was added to the
     VWP, the U.S. government effectively increased the number of countries whose
     passports became fraud threats. FDL stressed that the security of document
     manufacturing and the issuing process for VWP passports is critical. Therefore,
     it is essential to review VWP government document manufacturing and issuing
     practices. The required biennial country reviews are supposed to address these
     issues. However, BTS has not planned any future country reviews.

     Recommendations

     We recommend that the Under Secretary for Border and Transportation Security:

           6. 	 Develop a procedure to check all LASP data provided by VWP
                governments to the U.S. government against entry and exit data to
                assess the magnitude of vulnerability from the fraudulent use of lost and
                stolen VWP passports and, if possible, to identify and take enforcement
                measures against travelers who remain in the U.S. after entering
                fraudulently with such documents.




An Evaluation of the Security Implications of the Visa Waiver Program	             Page 19
                                  7. 	 Develop procedures to collect and analyze information collected at POEs
                                       regarding any fraudulent use of VWP passports.

                                  8. 	 Include as part of BTS’ country review protocols, the provision to review
                                       the security of VWP document manufacturing and issuing practices.

Reporting LASP Information
                             FDL and others at DHS told us that there continue to be problems with how the
                             United States obtains LASP information from VWP governments. Obtaining this
                             information is essential in order to build an accurate database against which POE
                             inspectors can check the documents of applicants for entry into the United States.

                             A CBP official with 13 years experience told us that LASP information for
                             the U.S. database is channeled from foreign authorities primarily through the
                             Department of State. INTERPOL provides LASP data through faxes, while
                             Canadian authorities provide some information directly to the U.S. government.
                             Some government ministries, we were told, contact consular officials at U.S.
                             embassies and give them LASP data; others pass it to the regional security officer
                             at U.S. embassies or to a legal attaché. In some cases, FDL receives information
                             directly from foreign officials. Also, LASP data can be passed to DHS
                             components abroad or in the United States from diplomatic or law enforcement
                             personnel representing VWP governments.

                             During our visits to VWP countries, we also heard varying accounts of how
                             designated VWP governments provide LASP information to the United States,
                             reflecting a lack of uniformity, inconsistency and differences in practice, and
                             in the case of France, the absence of a bilateral agreement to serve as a formal
                             framework for providing such information.19

                             The director of Passport Services at the Department of State told us that all its
                             LASP data is entered into the Consular Lookout and Support System (CLASS),
                             and from CLASS into Treasury Enforcement Communications System (TECS)
                             and then is available directly to POE inspectors. He said the flow of LASP
                             information from VWP governments currently is “pretty good,” and has improved


19
   When we asked a group of French passport officials how their government provides LASP data to the United States, some responded that
it was provided to U.S. law enforcement contacts through a French police officer at their embassy in Washington. Others were uncertain,
and some i
States. One official said that France provides LASP data to Interpol and to European governments, and through informal channels to the
United States.


Page 20	                                  An Evaluation of the Security Implications of the Visa Waiver Program
                 recently. On August 28, 2003, the Department of State sent instructions to all
                 embassies and consulates describing the collection, reporting, and data entry
                 requirements of LASP data. When reported from diplomatic and consular posts,
                 this information is shared simultaneously with DHS through the “Lookout Unit”
                 at CBP’s National Targeting Center.

                 Recommendation

                 We recommend that the Under Secretary for Border and Transportation Security:

                       9. 	 In coordination with the Department of State, develop standard operating
                            procedures for the routine and proactive collection of LASP information
                            from host governments for its dissemination to United States agencies.

Detection of Stolen VWP Passports
                 In March 1999 and December 2001, the DOJ OIG reviewed the VWP
                 and reported a number of key problems regarding LASP issues. One
                 recommendation, made in the first report and reiterated in the second, was that
                 POE inspectors be required to enter the passport number of each VWP applicant,
                 especially of passports that are not machine-readable, to be checked against
                 the lookout system. INS issued such a policy and re-issued it after the second
                 DOJ OIG report. However, we were unable to confirm that any monitoring of
                 compliance with this policy was ever performed.

                 We encountered another problem relating to LASP information. In most
                 countries, when passports are first manufactured, but before they are assigned to
                 an individual and “personalized” with the intended bearer’s photo and biographic
                 data, they contain a serial number, usually printed inside the rear cover. This is
                 called the “book number” or the “inventory control number” (ICN). In many
                 countries, including the United States, another number is assigned during the
                 personalization process and printed on the biographical page as the “passport
                 number.” Besides being clearly printed on the biographical page as the passport
                 number, this number is coded into the machine-readable strip of a machine-
                 readable passport (MRP). This numbering procedure is referred to as a “two-
                 number system.”




            An Evaluation of the Security Implications of the Visa Waiver Program	           Page 21
          Inside rear cover of a U.S. Passport, with the inventory control number (book
          number) and bar-code, as fabricated at U.S. Government Printing Office.




          Personalized, a different “passport number” appears both in the upper right
          corner, and also in an OCR font in the machine readable zone.




Page 22             An Evaluation of the Security Implications of the Visa Waiver Program
                           Foreign governments report stolen blocks of blank passports, which were never
                           issued nor assigned passport numbers, to the U.S. government using the ICNs.
                           The ICNs are entered en bloc into U.S. lookout systems. Several years ago, FDL
                           officials reported that they urged that ICNs be entered into the lookout systems
                           individually, not in one batch listing. This would provide the POE inspector with
                           a “one-to-one” hit when the passport was presented. This change in procedure
                           was not effected because of funding delays and the agency re-organization.20

                           The key problem with two number passports is that when male fide VWP
                           applicants present stolen passports for inspection they will contain false identity
                           information - including a false passport number. When the inspector enters
                           the false passport number into the lookout system, or enters it by swiping the
                           machine-readable strip, no “hit” or match will occur. This is because the lookout
                           system searched for the passport number, and not the ICN that was entered into
                           the system. The stolen passport will be detected only if the inspector manually
                           enters the ICN and queries the lookout system.

                           The ICN problem is further complicated by the lack of standardization in
                           numbering systems, including VWP participants and the United States. It is
                           difficult to keep track of which government uses which numbering system and
                           which anti-counterfeit security system, as changes occur in technology and
                           security measures are tightened. Keeping track of these protocols is a task that
                           an expertly trained and experienced inspector may be able to do, but we were told
                           that the task is often very challenging for newer inspectors. For example, one
                           POE inspector told us that the new Belgian passports incorporate the ICN within
                           the machine-readable zone of the document and thought some other new VWP
                           passports do as well; but, he was not sure which ones. FDL prepared a useful
                           summary guide to VWP passports for inspections purposes. It was issued in 2001
                           and now is being updated.

                           Government officials in Belgium, France, and Britain told us that each uses
                           the “one number system” recommended by the International Civil Aviation
                           Organization (ICAO), so the ICN will become the passport number when it
                           is issued. In Belgium, the ICN is preceded by two variable alphabetic letters,
                           which are essential in identifying individual passports. Belgian authorities told
                           us that these key alphabetic letters have been or are sometimes dropped by U.S.


20
  Accordin
overlook
the lookout system.



                      An Evaluation of the Security Implications of the Visa Waiver Program            Page 23
           inspectors when entering stolen Belgian passport numbers into U.S. lookout
           system. This results in no “hits” or matches.

           Brunei and Singapore use the two-number system and the bearer’s passport
           number is the same as their National Identity Card number. As a result, every
           passport a particular citizen ever carries will have the one passport number. When
           a passport is lost or stolen, the citizen’s new passport will have the same number
           as the one reported lost. Singapore authorities told us that they believe this
           permanent linkage between citizens and their passport numbers reduces fraud.

           Officials of the Passport Services Office at the Department of State told us that
           passport standardization issues are addressed through ICAO, and ICAO has
           already recommended that governments use a “one number” system for passports.
           This means that the ICN would be the same number used after the passport
           is issued containing personal identity information, and it would also be in the
           machine-readable zone; this, taken together with the pending development of
           biometric information included in passports, would defeat all but the most skillful
           attempts to forge stolen blank passports.

           Additionally, the Department of State’s Passport Services Office official told
           us that when the new biometric U.S. passport is introduced in October 2004, it
           will adopt the one number system for the first time. The United States also will
           support efforts within ICAO to change its one number recommendation to a
           uniform numbering standard that is required of participating governments. The
           new ICAO standard will be a positive development when it occurs, but it will take
           years for “one number” passports to replace the existing multiplicity of passport
           numbering systems in international use. The intervening years will see continuing
           vulnerability to forgery and fraudulent use of stolen blank passports, especially
           from VWP countries.

           Recommendation

           We recommend that the Under Secretary for Border and Transportation Security:

               10. 	Require that inspectors query the lookout systems using both the passport
                    number and the ICN for VWP passports from countries that use the two
                    number system.




Page 24	             An Evaluation of the Security Implications of the Visa Waiver Program
Stolen Passports are Returned to Travelers
                 POE inspectors cited another LASP problem that occurs with certain fraudulent
                 VWP travelers. If the inspector identifies a lost or stolen passport while
                 interviewing an applicant for entry – for example one that has been photo-
                 substituted or otherwise altered – the applicant will be denied entry, but the
                 fraudulent document must be given back to the traveler. The traveler then might
                 return to the foreign port of departure with these fraudulent documents in hand.
                 Inspectors told us that if they were allowed to keep these false documents it would
                 have the benefit of removing them from circulation, as well as serve as training
                 exemplars for new inspectors, who gain most of their knowledge and experience
                 on the job. We were told that there may be internationally accepted provisions for
                 providing “travel letters” to permit fraudulent travelers to be returned to foreign
                 destinations without their fraudulent documents, but cases were cited in which
                 such letters were refused by foreign authorities and the fraudulent travelers were
                 sent back to the United States. The result is that in most cases, inspectors return
                 fraudulent documents to applicants after denying them admission in order to
                 facilitate their reception in the country to which they are being returned.

                 Recommendation

                 We recommend that the Under Secretary for Border and Transportation Security:

                       11. R
                           	 eview the basis for the practice of returning fraudulent passports to
                           applicants denied admission, and if feasible, issue policy guidance that
                           would allow fraudulent passports to be seized by port inspectors or other
                           appropriate U.S. authorities.

US-VISIT and VWP
                 Currently, VWP travelers are excluded from processing through the US-VISIT
                 system. On January 5, 2004, DHS announced the launching of US-VISIT at 115
                 airports as well as cruise ship terminals at 14 seaports. US-VISIT established
                 new entry procedures for most foreign travelers with non-immigrant visas, using
                 biometric technologies – fingerprint scans and digital photographs – to verify
                 travelers’ identities. US-VISIT procedures facilitate more thorough screening
                 against criminal and terrorist databases and provide a “one-to-one” check linking
                 the visitor with a specific travel document. When announcing US-VISIT, DHS
                 said that visitors who seek to enter the United States under the VWP will not



            An Evaluation of the Security Implications of the Visa Waiver Program	           Page 25
          be affected by the US-VISIT program “at this time.” Thus, VWP visitors are
          not subject to the finger-scan and digital photograph procedures of US-VISIT.
          Accordingly, screening of VWP visitors against criminal and terrorist databases is
          less thorough than screening for travelers with visas. In addition, POE inspectors
          cannot make a “one-to-one” check linking a VWP traveler with a specific passport
          or travel document, increasing the potential risk of identity or document fraud by
          male fide travelers who abuse the VWP.

          Officials from the US-VISIT Office, CBP, and BTS provided us different
          perspectives regarding the decision to exclude VWP travelers. CBP and US-
          VISIT officials told us that VWP travelers would be included in US-VISIT
          procedures at an indeterminate time in the future. Several officials said that
          the decision not to include VWP travelers at the outset rested upon practical
          considerations and the need to implement the complex, nation-wide new national
          US-VISIT procedures in stages. We were told that earlier efforts to set up an
          automated entry-exit system had shown that it was advisable to proceed in steps,
          because as the infrastructure is expanded, the software is adapted and experience
          is acquired. While we were told that there are logistical arguments supporting
          deferment of VWP entry into US-VISIT, we did not find a firm commitment to
          apply US-VISIT procedures to VWP travelers eventually. According to one BTS
          policy official, no such decision has been made.

          POE inspectors were generally unsympathetic to the justification for excluding
          VWP travelers from US-VISIT. Several inspectors commented that VWP
          travelers should be the first ones to be finger-scanned and photographed because
          travelers with visas have already gone through an extensive screening process
          that includes being photographed and finger-scanned at the embassy or consulate
          before arriving in the United States. They said that while VWP travelers in
          general are considered “low risk” relative to those from countries not in VWP,
          there are sufficient problems with VWP travelers to constitute an added security
          risk. From an enforcement perspective, it makes sense to take every step
          available to reduce such risks, they said.

          The following description highlights the concerns of the POE inspectors. While
          the name-based database checks conducted at POEs are the same for all travelers
          - visa or VWP - the visa travelers receive an additional check provided by US-
          VISIT. Visa travelers, even after undergoing previous background checks, have
          their fingerprints taken and checked at the POE. This check, at the time of visa
          application, constitutes a security advantage because it runs the traveler against
          fingerprint or biometric databases that cannot be done with names alone. If a



Page 26             An Evaluation of the Security Implications of the Visa Waiver Program
     VWP traveler appearing at POE falsely claiming to be John Smith presents what
     appear to be valid documents, the inspector will run the name “John Smith”
     in the database. If there is no record for “John Smith,” there will be no match
     against any watch list or warrants list. However, if John Smith is traveling on
     a visa, he will also have his fingerprints taken. Since January 2004, there have
     been dozens of examples of persons claiming to be “John Smiths” but after the
     fingerprint checks are run, they turn out to be wanted felons or suspected terrorists
     known by another name. If “John Smith,” however, enters on the VWP, he will
     not be fingerprinted, the derogatory information under the false name will not be
     discovered, and he will not be apprehended or removed. This is the argument for
     running all visitors through US-VISIT.

     However, not everyone with law enforcement experience shared this view. Three
     DHS officials with extensive inspections background expressed support for the
     need to implement US-VISIT in stages and to delay inclusion of VWP applicants
     under its procedures, because of the positive benefits of the VWP and lack of
     evidence over the years that it poses a serious security risk.

     Conversely, several experts in passenger analysis and fraud prevention predicted
     that soon after implementation of US-VISIT procedures, there will be increased
     efforts by terrorists and counterfeiters to obtain or produce VWP travel
     documents and to use them for travel to the United States and elsewhere. Male
     fide applicants will seek to avoid providing fingerprints and digital photographs,
     and the demand for VWP documents and their fraudulent use will increase. We
     were told by several POE inspectors and intelligence analysts that certain VWP
     passports, e.g., Britain, France, Spain, Australia, and Denmark, already are
     preferred documents for terrorist groups. The non-inclusion of VWP applicants
     under US-VISIT procedures can be expected to push these groups toward
     increased use of VWP passports.

     One DHS official suggested that for security reasons US-VISIT procedures
     should be applied to all applicants unless they present documents that incorporate
     biometric identifiers. Widespread use of VWP passports with biometric
     identifiers, however, lies years in the future. Another U.S. intelligence official
     told us that he does not expect terrorist groups to make increased use of
     counterfeit VWP passports, but to target the document issuing process itself, by
     creating or forging fictitious identities in order to obtain genuine VWP passports
     with all the latest security features in them.




An Evaluation of the Security Implications of the Visa Waiver Program             Page 27
                               The majority of opinions we heard favored the inclusion of VWP travelers in
                               the US-VISIT procedures. While some officials defended the decision to defer
                               this step, their view was that eventually it should happen. The ambiguity as to
                               whether VWP travelers will in the future be subjected to US-VISIT procedures
                               seems avoidable and suggests a gap in long-range investment and business
                               planning that should be addressed.

                               Recommendation

                               We recommend that the Under Secretary for Border and Transportation Security:

                                     12. 	Include VWP travelers under US-VISIT procedures as soon as the
                                          program is capable of handling them.21

Biometric Passport Deadline
                               Department of State officials told us that most of the 27 designated VWP
                               countries will not meet the deadline of October 26, 2004, for complying with
                               EBSVERA, which requires a country to issue machine readable, tamper resistant
                               passports with biometric and document identifiers that comply with ICAO
                               standards.22 EBSVERA required23 that any alien applying for admission under
                               the VWP on or after October 26, 2004, present a passport that meets those
                               requirements, unless the alien’s passport was issued prior to that date. The
                               legislation does not provide waiver authority regarding those provisions.

                               The Department of State now is facing what one official calls “a train wreck”
                               on October 27, 2004, the date when the VWP would become unavailable as a
                               travel option for large numbers of travelers without biometric ICAO compliant
                               passports. Department of State officials told us this would necessitate the
                               processing and adjudication of an estimated 3 to 5 million additional visa
                               applications, and at least short-term hiring of hundreds of additional consular
                               officers and foreign nationals to do this unbudgeted and unplanned work. Also,
                               the disruption of the VWP may result in significant changes in traveler patterns at
                               U.S. POEs, creating staffing and other resource shortages.



21
   On April 2, 2004, after the release of our draft report, DHS issued a press release stating that it will begin enrolling VWP travelers 

through the US-VISIT program at all airports and seaports by September 30, 2004. 

22
   Section 303 (c)(1) of Enhanced Border Security and Visa Entry Reform Act of 2002.

23
   EBSVERA, Section 303(c)(2).




Page 28	                                      An Evaluation of the Security Implications of the Visa Waiver Program
                              Recommendation

                              We recommend that the Under Secretary for Border and Transportation Security:

                                    13. 	Develop and recommend legislation to provide waiver authority
                                         regarding the October 26, 2004, deadline or provide a report on its
                                         preparation to meet the changes in BTS’ workload.24

POE Inspector Training
                              Lack of training hampers POE inspectors’ efforts to detect VWP passport fraud.
                              At Newark International Airport, we had an extended discussion on the benefits
                              of and problems with the VWP with a group of experienced POE inspectors.
                              POE inspectors emphasized their respect for today’s visa issuing process at U.S.
                              consulates as well as the visa’s security features, contrasting this with the brief
                              POE inspection given a VWP applicant. The group strongly agreed that POE
                              inspectors need more and better training on passport fraud, especially with VWP
                              passports where the applicant will have no prior screening. They noted that the
                              12-week training course for new inspectors at the Federal Law Enforcement
                              Training Center devotes only one day to passport fraud. New inspectors learn
                              most of their passport fraud detection skills on the job, and in the learning process
                              make mistakes that more seasoned inspectors would avoid.

                              We were told that FDL provides invaluable information. FDL experts once
                              provided instruction at POEs. One inspector stated that he attended a training
                              program years ago, but did not know if the program still existed. Most training
                              on passport fraud is conducted locally at the POEs. Some POEs have sent small
                              teams of experienced inspectors to provide short instructional courses at other
                              POEs, but these efforts were curtailed because of inadequate funds. A senior FDL
                              official emphasized that “the biggest gap of all in our security system today is in
                              the great need for increased investment in our front-line inspections officers.”

                              Compounding the training issue is the high attrition of POE inspectors. POE
                              inspectors told us that over the past four years attrition rates for POE inspectors at
                              JFK International Airport has ranged between ten and twenty percent annually.25


24
   The A
deadline for two years.
25
  A CBP official from the New York City office provided the following attrition figures for JFK for the past four fiscal years: FY 00: 46 out
of 453 = 10.2 percent; FY 01: 67 out of 453 = 14.8 percent; FY 02: 96 out of 460 = 20.9 percent; FY 03: 73 out of 471 = 15.5 percent.



                        An Evaluation of the Security Implications of the Visa Waiver Program	                                     Page 29
           The attrition problem worsened recently when the Transportation Security
           Administration announced the expansion of the federal air marshals program. We
           were told that the turnover rate at Newark International Airport over the past year
           was the highest ever – more than 50 percent. Many junior inspectors immediately
           left to become federal air marshals because of better pay, greater career mobility,
           shorter hours, and better retirement benefits. Because air marshals are designated
           federal law enforcement personnel, they receive higher pay and can retire much
           earlier. With the filling of the federal air marshals’ ranks, the hemorrhage of
           inspectors has slowed.

           Recommendation

           We recommend that the Under Secretary for Border and Transportation Security:

               14. 	Develop a training program for inspectors to ensure that they acquire,
                    retain and enhance their abilities to detect fraud at the POEs.




Page 30	             An Evaluation of the Security Implications of the Visa Waiver Program
                                                                              Appendix 1
                                                                              Countries in the Visa Waiver Program



                                  Countries in the Visa Waiver Program

                                            Date Added to                         Date Removed From
Country                                     Visa Waiver Program                   Visa Waiver Program
Great Britain and Northern Ireland                 07/01/88
Japan                                              12/15/88
France                                             07/01/89
Switzerland                                        07/01/89
Germany                                            07/15/89
Italy                                              07/15/89
Netherlands                                        07/29/89
Sweden                                             07/29/89
Andorra                                            10/01/91
Austria                                            10/01/91
Belgium                                            10/01/91
Denmark                                            10/01/91
Finland                                            10/01/91
Iceland                                            10/01/91
Liechtenstein                                      10/01/91
Luxembourg                                         10/01/91
Monaco                                             10/01/91
New Zealand                                        10/01/91
Norway                                             10/01/91
San Marino                                         10/01/91
Spain                                              10/01/91
Brunei                                             07/29/93
Ireland                                            04/01/95
Argentina                                          07/08/96                              02/21/02
Australia                                          07/29/96
Slovenia                                           10/20/97
Portugal                                           08/09/99
Singapore                                          08/09/99
Uruguay                                            08/09/99                              04/15/03




                 An Evaluation of the Security Implications of the Visa Waiver Program                      Page 31
Appendix 2
Nonimmigrant Admissions for Visa Waiver Program Countries, 1998 - 2003



Fiscal Years 1998-2003
                                          1998           1999            2000            2001            2002           2003 1
Total VWP                              15,792,630 16,518,759 17,697,919 16,582,603 13,230,001 13,520,950
Andorra                                       588        686        723        573        386        478
Argentina         2
                                            300,607        353,240         410,915         443,047             89,695            X
Australia                                   418,615        451,158         519,176         478,688        445,389         483,423
Austria                                     179,559        195,835         190,194         153,008        107,636         114,976
Belgium                                     206,671        223,961         234,136         197,660        166,286         155,391
Brunei                                           667            666             615             568              303         323
Denmark                                     131,801        142,185         151,417         143,559        124,819         141,654
Finland                                      78,941          88,908         99,266          86,796             71,342      73,399
France                                    1,050,173      1,141,334       1,193,256       1,075,677        932,853         918,691
Germany                                   1,837,930      1,972,189       1,893,534       1,525,268      1,208,127       1,251,703
Iceland                                      19,165          24,013         24,462          21,648             17,733      19,773
Ireland                                     230,244        292,625         338,793         345,623        297,497         305,205
Italy                                       686,572        723,149         737,641         670,751        515,135         575,077
Japan                                     4,998,309      4,740,097       4,942,818       4,752,948      3,348,087       3,300,513
Liechtenstein                                 1,343           1,394           1,392          1,365               996         993
Luxembourg                                   12,270          12,817         11,141           8,243              6,001       6,433
Monaco                                           559            671             677             586              377         432
Netherlands                                 538,083        579,923         623,088         538,967        486,672         497,337
New Zealand                                 143,714        151,356         171,403         168,417        187,281         180,494
Norway                                      128,293        135,110         139,728         134,515         110,713        119,638
Portugal    3
                                                  X           7,118         66,779          72,402             57,251      64,030
San Marino                                       527            522             531             398              279         300
Singapore       3
                                                  X           5,636         66,521          68,434             49,792      54,521
Slovenia                                     11,543          14,938         16,119          13,155              6,951       9,658
Spain                                       325,574        371,577         394,170         369,543        350,045         374,066
Sweden                                      275,065        300,344         317,515         273,100        198,532         220,256
Switzerland                                 312,543        313,724         322,935         291,764        228,300         220,679
United Kingdom                            3,757,298      4,088,050       4,563,621       4,487,214      3,939,679       4,170,466
Uruguay     3,4
                                                  X           3,802         33,625          40,931             35,705      23,433
Unknown                                     145,976        181,731         231,728         217,755        246,139         237,608

1
    Preliminary data.
2
    Removed from Program February 2002.
3
    Admitted to Program August 1999.
4
    Removed from Program April 2003.
X Not applicable.



Page 32                                An Evaluation of the Security Implications of the Visa Waiver Program
                    Appendix 3
                    Nonimmigrant Visa Issuances in VWP Countries Before and After VWP Accession



        Nonimmigrant Visa Issuances in VWP Countries Before and After VWP Accession


Entered Program during FY-1988

 Nationality (admitted)        1986              1987              1988             1989      1990
 Great Britain and
                              651,075           784,203           955,739          543,138    347,476
 Northern Ireland(7/88)

Entered Program during FY-1989

 Nationality (admitted)       1987              1988              1989              1990       1991
 Japan (12/88)             1,538,725         1,789,598           351,947           141,091    132,696
 France (7/89)               382,345           374,353           270,129            97,490     96,630
 Switzerland (7/89)          125,138           145,793           125,555            65,659     65,517
 Germany, Fed
                              583,539           702,557          521,345           189,356    182,446
 Republic of (7/89)
 Italy (7/89)                 226,762           249,833          196,456             42,197    38,258
 Netherlands (7/89)           157,101           186,173          164,261             71,810    59,185
 Sweden (7/89)                117,878           144,441          135,253             22,672    32,018

Entered Program during FY-1992

 Nationality (admitted)       1990              1991               1992             1993       1994
 Andorra (10/91)                 128               190                 22               29         29
 Austria (10/91)              96,411            79,490              8,210            6,906      6,948
 Belgium (10/91)              71,744            78,232            11,534             8,007      6,499
 Denmark (10/91)              71,245            62,641            15,843           17,124     18,862
 Finland (10/91)              73,886            64,006              6,895            6,285      6,324
 Iceland (10/91)               7,815             7,763              2,816            3,103      2,834
 Liechtenstein (10/91)           517               487                 47               72         83
 Luxembourg (10/91)            4,180             4,921                701              699        776
 Monaco (10/91)                  143               147                 19               21         17
 New Zealand (10/91)          93,237            74,920            19,191           15,544     15,699
 Norway (10/91)               62,134            48,907              9,787            9,101    10,033
 San Marino (10/91)              214               167                 16                8         20
 Spain (10/91)               171,874           187,383            40,356           28,692     25,447




                 An Evaluation of the Security Implications of the Visa Waiver Program                  Page 33
Appendix 3
Nonimmigrant Visa Issuances in VWP Countries Before and After VWP Accession



Entered Program during FY-1993

 Nationality (admitted)   1991           1992              1993             1994              1995
 Brunei (7/93)             555            716               585              341               346

Entered Program during FY-1995

 Nationality (admitted)   1993           1994             1995              1996              1997
 Ireland (4/95)           82,606         92,337           45,932            14,514            14,573

Entered Program during FY-1996

 Nationality (admitted)    1994            1995                1996               1997               1998
 Argentina (7/96)         168,224         152,715             111,684             11,226             12,089
 Australia (7/96)         250,542         265,308             268,667             26,973             28,044

Entered Program during FY-1998

 Nationality (admitted)   1996           1997              1998              1999             2000
 Slovenia (10/97)          9,883         10,792             1,609             1,227            1,212

Entered Program during FY-1999

 Nationality (admitted)   1997           1998              1999              2000             2001
 Portugal (8/99)          47,711         45,619            42,872            5,576            4,685
 Singapore (8/99)         63,159         50,379            35,423            7,475            7,991
 Uruguay (8/99)           23,274         22,314            16,776            2,395            2,486




Page 34                      An Evaluation of the Security Implications of the Visa Waiver Program
Appendix 4
Legal and Legislative History of the Visa Waiver Program



                   Legislative History

                   The Immigration Reform and Control Act of 1986 (IRCA)1 was designed to help control
                   illegal immigration to the United States and to remove the stigma attached to longtime resident
                   undocumented aliens. It provided for the establishment of a Visa Waiver Pilot Program (VWPP),
                   which waives visa requirements for certain aliens seeking admission to the United States for a
                   period of less than 90 days.

                   To be eligible for a visa waiver, IRCA stipulates that an alien:

                                 •	 Applies as a non-immigrant visitor pursuant to 8 USC 1101 for a period not
                                    exceeding 90 days;

                                 •	 Is a national of a country that extends reciprocal privileges to citizens and
                                    nationals of the United States, and that country is designated under the VWPP;

                                 •	 Executes a waiver of review and appeal of an immigration officer’s determination
                                    as to admissibility, or to contest, other than on the basis of an application for
                                    asylum, any action for deportation against the alien;

                                 •	 Possess a round-trip, nontransferable transportation ticket valid for a period of
                                    not less than one year, issued by a carrier which has entered into an agreement to
                                    indemnify the United States if the visitor is refused admission or remains in the
                                    United States unlawfully after the 90-day period, and the carrier has agreed to
                                    submit daily to immigration officers any immigration forms received with respect
                                    to visitors provided visa waivers;

                                 •	 Does not represent a threat to the welfare, health, safety, or security of the United
                                    States; and

                                 •	 Complied with the conditions of any previous admission.

                   IRCA stipulates conditions before the VWPP could be put into operation, including requirements
                   for the Attorney General to:

                                 •	 Develop a form (I-94W) for use under the VWPP;2



       1
           P.L. 99-603.

       2
           This form became the I-94 W form submitted by VWP applicants when presenting themselves for admission into the United States. 



                                An Evaluation of the Security Implications of the Visa Waiver Program	                               Page 35
Appendix 4
Legal and Legislative History of the Visa Waiver Program



                           •	 In cooperation with the Secretary of State, develop and establish an automated
                              data arrival and departure control system to screen and monitor the arrival into
                              and departure from the United States of nonimmigrant visitors who receive a visa
                              waiver; and

                           •	 Notify Congress certifying that the required form has been developed, and the
                              required screening and monitoring system is operational and effective.

            IRCA authorized the participation of up to eight countries, jointly designated by the Attorney
            General and the Secretary of State, for the VWPP. Initial qualifications for designated countries
            included (a) a low nonimmigrant refusal rate (less than 2 percent) for the previous two-year
            period; and, (b) a low nonimmigrant refusal rate (less than 2.5 percent) for each of the two
            previous years. Continuing qualification each fiscal year for designated countries required that
            in the previous fiscal year, fewer than 2 percent of nonimmigrant applicants from that country
            were excluded from admission, withdrew their applications, or violated the terms of admission.
            IRCA also included prohibitions against any adjustment of nonimmigrant status or adjustment to
            immigrant status by visa waiver visitors.

            Between July 1, 1988, and July 29, 1989, eight countries were designated jointly by the Attorney
            General and the Secretary of State to participate under the VWPP: Great Britain and Northern
            Ireland, Japan, France, Switzerland, Germany, Italy, Netherlands, and Sweden.3

            The Immigration Act of 1990 (IMMACT), P.L. 101-649, in Section 201, amended the VWPP
            by removing the eight-country cap and extending the provisions to all countries that met the
            qualifying provisions in Section 217 of the Act. IMMACT added two new qualifications for
            countries designated to participate in the VWP: that the government of the country certifies that
            it is in the process of developing a program to issue machine-readable passports to its citizens;
            and that the Attorney General determines that the United States enforcement interests would
            not be compromised by the designation of the country. IMMACT also extended the period for
            the VWPP until September 30, 1994. On October 1, 1991, thirteen additional countries were
            designated to participate under the VWPP: Andorra, Austria, Belgium, Denmark, Finland,
            Iceland, Liechtenstein, Luxembourg, Monaco, New Zealand, Norway, San Marino, and Spain.
            On July 29, 1993, Brunei was designated to participate under the VWPP.

            The Immigration and Nationality Technical Corrections Act of 1994, P.L. 103-416, extended
            the expiration date of the VWPP until September 30, 1996, and created a new “probationary”
            category for VWPP participation. Ireland was added as a VWPP country on a probationary
            basis in1995, upon publication of an interim regulation in the Federal Register (60 FR 15855).
            Argentina and Australia were added in 1996.

3
    For a chronological listing of designation of VWP countries, see Appendix 1.



Page 36	                                      An Evaluation of the Security Implications of the Visa Waiver Program
                                                             Appendix 4
                                                             Legal and Legislative History of the Visa Waiver Program



          The Illegal Immigration Reform and Immigrant Responsibility Act of 1996 (IIRIRA), P.L. 104-
          208, amended Section 217 of the Immigration and Nationality Act by extending the VWPP until
          September 30, 1997. IIRIRA also named the Attorney General as the principal designator of
          VWPP countries, eliminated probationary VWPP qualification status, and made countries then in
          such status (Ireland being the only country) permanent participating VWPP countries subject to
          the same disqualification criteria established for other VWPP countries.

          In April 1998, the INA was modified to extend the visa waiver pilot program through April 30,
          2000, and to provide for the collection of data with respect to the number of nonimmigrants who
          remain in the United States after the expiration of the period of stay authorized by the Attorney
          General. The law also modified statutory language relating to low refusal rates that could extend
          the VWPP to additional countries previously unable to qualify.4 Slovenia was added as a VWPP
          country in 1997; Portugal, Singapore, and Uruguay were added in 1999. Statutory authority
          for the VWPP expired on April 30, 2000, but the INS Commissioner exercised the Attorney
          General’s parole authority to extend the program temporarily.

          The Immigration and Naturalization Service Data Management Improvement Act (DMIA) of
          2000, P.L. 106-215, required the Attorney General to implement an integrated entry and exit data
          system in an electronic format. The system, using available alien arrival and departure data, was
          to be implemented at airports and seaports not later than December 31, 2003, and at high-traffic
          land border ports not later than December 31, 2004. DMIA required the Attorney General to
          submit annual reports following commencement of the integrated entry and exit data system. In
          addition to numbers of alien arrivals and successful departure matches, the reports are to show
          “the number of aliens who arrived pursuant to a nonimmigrant visa, or as a visitor under the visa
          waiver program (italics added), …for whom no matching departure data have been obtained…
          with an accounting by the alien’s country of nationality and date of arrival in the United States.”

          On October 30, 2000, the Visa Waiver Permanent Program Act (VWPPA), P.L. 106-396,
          was enacted “to amend the Immigration and Nationality Act to make improvements to, and
          permanently authorize, the visa waiver pilot program under section 217 of such Act.” Besides
          making this program’s authorization permanent, the VWPPA included other provisions designed
          to strengthen documentary and reporting requirements. Among the VWPPA provisions are:

                         •	 By October 1, 2007, all entrants under the VWP must have machine-readable
                            passports;5


4
  Initial qualifications for newly designated VWP countries as stipulated in IRCA of 1986 were a low nonimmigrant visa (NIV) refusal
rate (less than two percent) for the previous two-year period and a low NIV refusal rate (less than 2.5 percent) for each of the previous two
years. P.L. 105-173 modified this by adding a definition of low NIV refusal rate as “less than three percent for the previous full fiscal year.”
5
 IMMACT in 1990 required a qualifying VWP government to certify that it is in the process of developing a program to issue machine-
readable passports to its citizens. IMMACT did not specify a date by which VWP entrants would have to present machine-readable
passports. Subsequent to the VWPPA, the USA PATRIOT Act dated October 25, 2001, advanced the deadline for VWP entrants to have

                         An Evaluation of the Security Implications of the Visa Waiver Program	                                       Page 37
Appendix 4
Legal and Legislative History of the Visa Waiver Program



                       •	 All VWP applicants must be checked against an automated electronic database
                          containing information about the inadmissibility of aliens;

                       •	 The Attorney General, in consultation with the Secretary of State, shall
                          evaluate the effect of each program country’s continued designation on the law
                          enforcement and security interests of the United States, not less than once every
                          five years;

                       •	 By October 1, 2001, the Attorney General shall develop and implement a fully
                          automated entry and exit control system that will collect a record of arrival and
                          departure for every alien who arrives and departs by sea or air at a port of entry in
                          to the United States and is provided a waiver under the program;6

                       •	 By October 1, 2002, no waiver may be provided to an alien arriving by sea or air
                          unless the carrier is electronically transmitting passenger data to the automated
                          entry and exit control system; and

                       •	 The calculation of visa refusal rates for determining country eligibility shall not
                          include any refusals based on race, sex, or disability.

           In the wake of the September 11, 2001, terrorist attacks, the Uniting and Strengthening America
           by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism (USA PATRIOT)
           Act, P.L. 107-56, in the context of providing for strengthened measures for aliens visiting the
           United States:

                       •	 Advanced the deadline for VWP aliens to present machine-readable passports
                          from 2007 to 2003.

                       •	 Provided limited waiver authority to the Secretary of State for the period
                          beginning October 1, 2003, and ending September 30, 2007, with respect to
                          nationals of a VWP country, if the Secretary finds that the program country is
                          making progress toward ensuring that machine readable passports are generally
                          available to its nationals; and has taken appropriate measures to protect against
                          misuse of passports the country has issued that are not machine readable.



machine-rea
the USA PATRIOT Act to waive this requirement for nationals of 22 of the 27 VWP countries.
6
 The Immigration and Naturalization Service Data Management Improvement Act of 2000 mandated the Attorney General to implement an
integra                                                                                                                    c land
border ports of entry by December 31, 2004; and at all ports of entry by December 31, 2005.



Page 38	                                 An Evaluation of the Security Implications of the Visa Waiver Program
                                                               Appendix 4
                                                               Legal and Legislative History of the Visa Waiver Program



            In a broader context, and without specific reference to the VWP, the USA PATRIOT Act also:

                           •	 Mandated the Attorney General and the Secretary of State jointly, within two
                              years, to develop and certify a technology standard for the purpose of conducting
                              background checks and confirming identity with respect to persons applying for a
                              U.S. visa or seeking to enter the United States pursuant to a visa.

                           •	 Provided that the Secretary of State, in the Secretary’s discretion and on the
                              basis of reciprocity, may provide to a foreign government information in the
                              Department of State’s computerized visa lookout database and, when necessary
                              and appropriate, other records covered by this section related to information in the
                              database.

            The Aviation Transportation Security Act of 2001, P.L. 107-071, did not contain any provisions
            expressly referring to the VWP. Section 115 of the act established a requirement for air carriers
            operating flights to the United States to transmit electronically a passenger and crew manifest to
            the Commissioner of Customs. Such information was already required for VWP travelers under
            the VWPPA.

            The Enhanced Border Security and Visa Entry Reform Act (EBSVERA), P.L. 107-173,
            established a technology standard for visa waiver participants, which requires that not later than
            October 26, 2004, the government of each country designated as a VWP participant shall certify,
            as a condition for designation or continuation of that designation, that it has a program to issue
            to its nationals machine-readable passports. These new passports are to be tamper-resistant
            and incorporate biometric and document authentication identifiers that comply with applicable
            standards established by the International Civil Aviation Organization. Also, it required that
            on and after October 26, 2004, any alien applying for admission under the VWP shall present a
            passport that meets these requirements unless the alien’s passport was issued prior to that date.
            No waiver authority was granted regarding the October 26, 2004, deadline for these provisions.7

            EBSVERA further amended the Immigration and Nationality Act, Section 217 (c)(2), to require
            that the government of the country certifies that it reports to the United States on a timely basis
            the theft of blank passports issued by that country. EBSVERA did not specify whether such
            certification was to be on a recurring basis; and “on a timely basis” was not further defined.
            Additional provision was made, however, that if the Attorney General8 and the Secretary of State
            jointly determine that the (VWP) country is not reporting the theft of blank passports, as required



7
    For these provisions, see EBSVERA Section 303 (c) (1) and (2).

8
    Subsequent legislation transferred this authority to the Secretary of Homeland Security.



                           An Evaluation of the Security Implications of the Visa Waiver Program	                Page 39
Appendix 4
Legal and Legislative History of the Visa Waiver Program



           by EBSVERA, the Attorney General shall terminate the designation of the country as a program
           country.9

Argentina was removed as a VWP participant in 2002. The Department of Justice, in consultation with
the Department of State, determined that Argentina’s participation in the VWP was inconsistent with
the U.S. interest in enforcement of the immigration laws of the United States. This determination was
made following an economic crisis in Argentina and an increase in the number of Argentine nationals
attempting to use the VWP to live and work illegally in the United States. Uruguay was removed as a
VWP participant in 2003. The Attorney General’s decision to terminate Uruguay’s participation in the
VWP was based on the high intercept and overstays rates for Uruguayans.




9
    See EBSVERA Section 307 for these provisions.



Page 40                                    An Evaluation of the Security Implications of the Visa Waiver Program
                                                                                 Appendix 5
                                                                                 Management Comments



Management Comments
              On March 11, 2004, a copy of our draft report was provided to BTS for comment.
              We requested that BTS respond to the draft report within 30 days. We would have
              included BTS’ response in this appendix of the final report. As of April 20, 2004,
              we have not received BTS’ comments. We attempted to contact BTS officials
              several times to ascertain the status of the response but received no replies.




         An Evaluation of the Security Implications of the Visa Waiver Program                 Page 41
Appendix 6
OIG Evaluation of Management Comments



OIG Evaluation of Management Comments
                   BTS did not summit comments to our draft report and therefore, we consider all
                   recommendations unresolved.




Page 42                      An Evaluation of the Security Implications of the Visa Waiver Program
                                                                                        Appendix 7
                                                                                        Recommendations



OIG Recommendations to the Under Secretary of the Bureau of Transportation and Border
Security

                1.	 Assign responsibility for policy direction of the VWP to a specific office,
                    designate a VWP program manager with clearly defined responsibilities, and
                    designate subordinate officials in other DHS components upon which the VWP
                    depends for its coordinated functions.

                2.	 Develop a plan to ensure that accurate and timely submission of required VWP
                    annual reports.

                3.	 Formally assign responsibility for conducting the required country reviews and
                    develop formal protocols for conducting the reviews.

                4.	 Determine what funds and resources will be necessary to conduct the mandated
                    country reviews.

                5.	 Conduct the review of Belgium as a designated VWP participant to avoid any
                    lapse when its one year provisional status ends on May 14, 2004.

                6.	 Develop a procedure to check all LASP data provided by VWP governments
                    to the U.S. government against entry and exit data to assess the magnitude of
                    vulnerability from the fraudulent use of lost and stolen VWP passports and, if
                    possible, to identify and take enforcement measures against travelers who remain
                    in the U.S. after entering fraudulently with such documents.

                7.	 Develop procedures to collect and analyze information collected at POEs
                    regarding any fraudulent use of VWP passports.

                8.	 Include as part of BTS’ country review protocols, the provision to review the
                    security of VWP document manufacturing and issuing practices.

                9.	 In coordination with the Department of State, develop standard operating
                    procedures for the routine and proactive collection of LASP information from
                    host governments for its dissemination to United States agencies.

               10. Require that inspectors query the lookout systems using both the passport number
                   and the ICN for VWP passports from countries, which use the two number
                   system.




               An Evaluation of the Security Implications of the Visa Waiver Program	             Page 43
Appendix 7
Recommendations



              11. Review the practice of returning fraudulent passports to applicants denied
                  admission, and if feasible, issue policy guidance that would allow fraudulent
                  passports to be seized by port inspectors or other appropriate U.S. authorities.

              12. Include VWP travelers under US-VISIT procedures as soon as the program is
                  capable of handling them.

              13. Develop and recommend legislation to provide waiver authority regarding the
                  October 26, 2004, deadline or provide a report on its preparation to meet the
                  changes in BTS’ workload.

              14. Develop a training program for inspectors to ensure that they acquire, retain and
                  enhance their abilities to detect fraud at the POEs.




Page 44                      An Evaluation of the Security Implications of the Visa Waiver Program
                                                                    Appendix 8
                                                                    Major Contributors to this Report



     Douglas Ellice, Senior Inspector

     (202) 254-4181

     Douglas.Ellice@dhs.gov


     Kenneth McKune, Senior Inspector

     (202) 254-4220

     Ken.McKune@dhs.gov





An Evaluation of the Security Implications of the Visa Waiver Program                        Page 45

Appendix 9
Report Distribution



                      Department of Homeland Security

                      Deputy Secretary
                      Chief of Staff
                      DHS Liaison
                      Ambassador Cresencio Arcos, Director, Office of International Affairs
                      Robert Bonner, Commissioner, U.S. Customs and Border Protection
                      Assistant Secretary Michael Garcia, U.S. Immigration and Customs
                      Enforcement


                      Department of State

                      Ambassador Maura Harty, Assistant Secretary for Consular Affairs
                      Robert B. Peterson, Assistant Inspector General for Inspections


                      Office of Management and Budget

                      Homeland Bureau Chief
                      DHS OIG Budget Examiner


                      Congress

                      Congressional Oversight and Appropriations Committee as Appropriate




Page 46                  An Evaluation of the Security Implications of the Visa Waiver Program
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Office of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
